                           U.S. Department of Agriculture
                               Office of Inspector General
                                Financial Audit Operations




   Statement on Standards for Attestation
Engagements No. 16 Report on Controls at the
  National Information Technology Center




                                         Report 88501-1-11
                                           September 2011
                            United States Department of Agriculture
                                    Office of Inspector General
                                     Washington, D.C. 20250




DATE:           September 19, 2011

AUDIT
NUMBER:         88501-1-11

TO:             Christopher L. Smith
                Chief Information Officer
                Office of the Chief Information Officer

ATTN:           Sherry Linkins
                Information Resources Management

FROM:           Gil H. Harden /s/
                Assistant Inspector General
                  for Audit

SUBJECT:        Statement on Standards for Attestation Engagements No. 16 Report on Controls at
                the National Information Technology Center


This report presents the results of our Statement on Standards for Attestation Engagements
(SSAE) No. 16 examination for the Office of the Chief Information Officer/National Information
Technology Center (OCIO/NITC) (formerly referred to as our Statement on Auditing Standards
No. 70 [SAS 70] audit at the OCIO/NITC). Our examination was conducted in accordance with
Government Auditing Standards, issued by the Comptroller General of the United States, and
relevant attestation standards established by the American Institute of Certified Public
Accountants. This report contains the OCIO/NITC systems description and OCIO/NITC
management’s assertion about whether the description is fairly presented and whether controls are
suitably designed and operating effectively to achieve control objectives stated in the description.
Additionally, the report includes our unqualified opinion on OCIO/NITC’s controls based on the criteria
described in its assertion. Furthermore, the report does not contain recommendations. The
projection of any conclusions based on our examination findings to future periods are subject to
the risk that changes may alter the validity of such conclusions. This report is intended solely for
the management of OCIO/NITC, its customer agencies, and their auditors.

We appreciate the courtesies and cooperation extended to us by members of your staff during
this engagement.
Table of Contents

Executive Summary .................................................................................................1
Independent Service Auditors’ Report ..................................................................2
Abbreviations ...........................................................................................................5
Exhibit A: Office of the Chief Information Officer/National Information
Technology Center – Management’s Systems Description..................................6
Exhibit B: Office of the Chief Information Officer/National Information
Technology Center – Management’s Assertion ..................................................37
Exhibit C: Office of Inspector General Tests of the Office of the Chief
Information Officer/National Information Technology Center Controls ........39
Executive Summary
Statement on Standards for Attestation Engagements No. 16 Report on Controls at the
National Information Technology Center (Report 88501-1-11)

Results in Brief
This report presents the results of our Statement on Standards for Attestation Engagements
No. 16 examination for the Office of the Chief Information Officer/National Information
Technology Center (OCIO/NITC). Our examination was conducted in accordance with
Government Auditing Standards, issued by the Comptroller General of the United States, and
relevant attestation standards established by the American Institute of Certified Public
Accountants.

OCIO/NITC provided us with a description of its systems for the period from July 1, 2010, to
June 30, 2011, included as exhibit A, and an assertion, included as exhibit B, about the fair
presentation of the description and suitability of the design and operating effectiveness of the
controls to achieve the related control objectives stated in its description. Our objectives were to
obtain reasonable assurance about whether, in all material respects, based on suitable criteria, (1)
management’s description of OCIO/NITC systems fairly presents the systems that were designed
and implemented throughout the period specified in the description; (2) the controls related to the
control objectives stated in the description of OCIO/NITC systems were suitably designed
throughout the specified period; and (3) the controls operated effectively to provide reasonable
assurance that the control objectives stated in the description of OCIO/NITC systems were
achieved throughout the specified period.

In our opinion, in all material respects, based on the criteria described in OCIO/NITC’s
assertion, the description fairly presents OCIO/NITC systems that were designed and
implemented throughout the period from July 1, 2010, to June 30, 2011. Also, in our opinion,
the controls included in the description were suitably designed and operating effectively to
provide reasonable assurance that the associated control objectives would be achieved from
July 1, 2010, to June 30, 2011, if user entities effectively applied the complementary controls
contemplated in the design of OCIO/NITC controls throughout this period.

Recommendation Summary
We do not make any recommendations in this report.




Report 88501-1-11                                                                                 1
Independent Service Auditors’ Report
To:     Christopher L. Smith
        Chief Information Officer
        Office of the Chief Information Officer

Scope
We have examined the Department of Agriculture’s Office of the Chief Information
Officer/National Information Technology Center (OCIO/NITC) description of its general support
systems1 and eAuthentication application made available to user entities for processing their
transactions throughout the period from July 1, 2010, to June 30, 2011, included as exhibit A,
and the suitability of the design and operating effectiveness of the controls to achieve the related
control objectives stated in the description. The description indicates that OCIO/NITC
considered complementary user entity controls in the design of OCIO/NITC controls. We did
not evaluate the suitability of the design or operating effectiveness of such complementary user
entity controls.

OCIO/NITC used subservice organizations for data sanitization, disaster recovery, web farm
support, and network and internet connectivity. The description in exhibit A includes only the
controls and related control objectives of OCIO/NITC and excludes the control objectives and
related controls of the specified subservice organizations. Our examination did not extend to
controls of the subservice organizations specified by OCIO/NITC.

OCIO/NITC’s Responsibilities
OCIO/NITC has provided an assertion, included as exhibit B, about the fair presentation of the
description and the suitability of the design and operating effectiveness of the controls to achieve
the related control objectives stated in its description, included as exhibit A. OCIO/NITC is
responsible for preparing the description and for the assertion, including the completeness,
accuracy, and method of presentation of the description and the assertion; providing the services
covered by the description; specifying the control objectives and stating them in the description;
identifying the risks that threaten the achievement of the control objectives; selecting the criteria;
and designing, implementing, and documenting controls to achieve the related control objectives
stated in the description.

Office of Inspector General’s Responsibilities
Our responsibility is to express an opinion on the fairness of the presentation of the description
and the suitability of the design and operating effectiveness of the controls to achieve the related
control objectives stated in the description, based on our examination. We conducted our
examination in accordance with Government Auditing Standards, issued by the Comptroller
General of the United States, and relevant attestation standards established by the American
Institute of Certified Public Accountants. Those standards require that we plan and perform our

1
 As shown in the OCIO/NITC description included as exhibit A, those systems are the Mainframe,
Telecommunications Network, and Infrastructure Support System.

Report 88501-1-11                                                                                    2
examination to obtain reasonable assurance about whether, in all material respects, the
description is fairly presented and the controls were suitably designed and operating effectively
to achieve the related control objectives stated in the description throughout the period from
July 1, 2010, to June 30, 2011.

An examination of a description of a service organization’s systems and the suitability of the
design and operating effectiveness of the service organization’s controls to achieve the related
control objectives stated in the description involves performing procedures to obtain evidence
about the fairness of presentation of the description and the suitability of the design and
operating effectiveness of those controls to achieve the related control objectives stated in the
description. Our procedures included assessing the risks that the description is not fairly
presented and that the controls were not suitably designed or operating effectively to achieve the
related control objectives stated in the description. Our procedures also included testing the
operating effectiveness of those controls that we consider necessary to provide reasonable
assurance that the related control objectives stated in the description were achieved. An
examination engagement of this type also includes evaluating the overall presentation of the
description and the suitability of the control objectives stated therein, and the suitability of the
criteria specified by the service organization and described in exhibit A. We believe that the
evidence we obtained is sufficient and appropriate to provide a reasonable basis for our opinion.

Inherent Limitations
Because of their nature, controls at a service organization may not prevent, or detect and correct,
all errors or omissions in supporting user entities’ applications or transactions. Also, the
projection to the future of any evaluation of the fairness of presentation of the description, or
conclusions about the suitability of the design or operating effectiveness of the controls to
achieve the related control objectives is subject to the risk that controls at a service organization
may become inadequate or fail.

Opinion
In our opinion, in all material respects, based on the criteria described in OCIO/NITC’s assertion
in exhibit B:

   ·   The description fairly presents the OCIO/NITC general support systems and
       eAuthentication application that were designed and implemented throughout the period
       from July 1, 2010, to June 30, 2011.

   ·   The controls related to the control objectives stated in the description were suitably
       designed to provide reasonable assurance that the control objectives would be achieved if
       the controls operated effectively throughout the period from July 1, 2010, to June 30,
       2011, and user entities applied the complementary controls contemplated in the design of
       OCIO/NITC controls throughout the period from July 1, 2010, to June 30, 2011.




Report 88501-1-11                                                                                   3
    ·    The controls tested, which were those OCIO/NITC controls necessary to provide
         reasonable assurance that the control objectives stated in the description were achieved2,
         operated effectively throughout the period from July 1, 2010, to June 30, 2011.

Description of Tests of Controls
The specific controls tested and the nature, timing, and results of those tests are included in
exhibit C.

Restricted Use
This report, including the description of tests of controls and results thereof in exhibit C, is
intended solely for the information and use of OCIO/NITC, user entities of OCIO/NITC support
systems during some or all of the period from July 1, 2010, to June 30, 2011, and the
independent auditors of such user entities, who have a sufficient understanding to consider it,
along with other information including information about controls implemented by user entities
themselves, when assessing the risks of material misstatements of user entities’ financial
statements. This report is not intended to be and should not be used by anyone other than these
specified parties.




Gil H. Harden /s/
Assistant Inspector General
  for Audit

September 14, 2011

Washington, D.C.




2
 In addition to the OCIO/NITC controls we tested, the effective application of the complementary user entity
controls referred to in the scope paragraph of this report is necessary to achieve the related control objectives.

Report 88501-1-11                                                                                                    4
Abbreviations
C&A                 certification and accreditation
CSAM                Cyber Security Assessment and Management
eAuth               eAuthentication
FIPS                Federal Information Processing Standards
IS                  Information System
IT                  Information Technology
NIST                National Institute of Standards and Technology
NITC                National Information Technology Center
OCIO                Office of the Chief Information Officer
POA&M               Plan of Action & Milestones
SDLC                System Development Life Cycle
SSP                 System Security Plan
USDA                Department of Agriculture




Report 88501-1-11                                                    5
The subsequent sections of the report exhibit A (pages 6
through 36), exhibit B (pages 37 through 38), and exhibit C
(pages 39 through 56) are not being publicly released due to
the sensitive security content.
